HHS/OIG-Audit--"Review of Outpatient Rehabilitation Services Provided by South Jersey Rehabilitation Associates, Inc. for Calendar Year Ended December 31, 1997, (A-02-99-01026)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Rehabilitation Services Provided by South Jersey Rehabilitation Associates, Inc. for Calendar
Year Ended December 31, 1997," (A-02-99-01026)
November 16, 2000
Complete
Text of Report is available in PDF format (1.8 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that South Jersey Rehabilitation Associates, Inc. (SJR) claimed payment for outpatient services
that did not meet the Medicare criteria for reimbursement. Specifically, we identified charges for outpatient rehabilitation
services which were not reasonable and necessary, lacked sufficient patient treatment plans, and/or were not properly supported
by medical record documentation. Based on a statistical sample, we estimate that at least $241,774 was paid to SJR for
unallowable charges. We also identified additional unallowable costs of $56,034 in owner's compensation and miscellaneous
unsupported costs on SJR's 1997 Medicare cost report. During our audit, SJR voluntarily left the Medicare program. We are
providing the results of our review to the fiscal intermediary so that it can make the appropriate financial adjustments.